APPENDIX A

United States v. Anderson
United States Court of Appeals for the Fifth Circuit
March 31, 2021, Filed
No. 19-10180
Reporter
841 Fed. Appx. 729 *; 2021 U.S. App. LEXIS 9376 **; 2021 WL 1234248

UNITED STATES OF AMERICA, Plaintiff-Appellee, versus
BRENT ANDERSON, Defendant-Appellant.
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:18-CR247-1.
Anderson v. United States, 141 S. Ct. 845, 208 L. Ed. 2d 415,
2020 U.S. LEXIS 5584, 2020 WL 6701075 (U.S., Nov. 16,
2020)

Case Summary
Overview
HOLDINGS: [1]-There was no error in applying the
sentencing enhancement because the fact that defendant
eventually abandoned his loaded, easily accessible pistol did
not negate a reasonable inference that the firearm facilitated—
or at least had the potential to facilitate—his initial flight in
the middle of a traffic stop. At a minimum, the district court's
factual determination that defendant's possession of a firearm
had the potential to facilitate his vehicular flight was plausible
in light of the record as a whole.
Outcome
Judgment affirmed.
Counsel: For United States of America, Plaintiff - Appellee:
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Northern District of Texas, Dallas, TX.
For Brent Anderson, Defendant - Appellant: Brandon Elliott
Beck, Federal Public Defender's Office, Lubbock, TX; Taylor
Wills Edwards Brown, Federal Public Defender's Office,
Northern District of Texas, Fort Worth, TX.
Judges: Before HO, OLDHAM, and WILSON, Circuit
Judges.

Opinion

[*729] ON REMAND FROM THE SUPREME COURT OF
THE UNITED STATES
PER CURIAM:*
In 2018, an Arlington police officer spotted Defendant Brent
Anderson leaving a Budget Suites motel. Knowing that
Anderson had an outstanding warrant for aggravated assault
with a deadly weapon, the officer pulled Anderson over and
approached his vehicle.
The officer instructed Anderson to place his arms outside the
window. But Anderson did not comply. Instead, he fled and
led the officer on a highspeed chase. At one point, Anderson
dropped a 9-millimeter pistol (with an extended magazine and
nineteen rounds) out of the driver's window. Several miles
and many traffic violations later, Anderson stopped his [**2]
car and surrendered.
Anderson pleaded guilty to one count of unlawful possession
of a firearm, in violation of 18 U.S.C. §§ 922(g)(1) and
924(a)(2). Because Anderson had possessed the pistol for a
portion of the chase, the probation officer recommended that
he receive a 4-level enhancement for possession of a firearm
"in connection with" another felony offense (the state felony
offense of evading arrest with a motor vehicle). See U.S.
SENTENCING
GUIDELINES
MANUAL
(U.S.S.G.)
§
2K2.1(b)(6)(B). The probation officer also recommended a 2level enhancement for reckless endangerment. Id. § 3C1.2.
These enhancements led to a guidelines range of 70 to 87
months. The district court adopted the Presentence
Investigation Report (PSR) and sentenced Anderson to 74
months, followed by three years of supervised release.
Anderson did not object to either the PSR or the sentence.

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

Page 2 of 2
841 Fed. Appx. 729, *729; 2021 U.S. App. LEXIS 9376, **2
[*730] Anderson brought two plain-error challenges on
appeal. First, he contended that the district court plainly erred
when it applied the § 3C1.2 reckless-endangerment
enhancement on top of the § 2K2.1 enhancement for "the
same course of conduct." Second, he alleged that the district
court plainly erred in determining that he possessed the
firearm "in connection with" his evading-arrest offense.
A panel of [**3] this court rejected Anderson's first
argument, holding that the district court did not plainly err in
applying both sentencing enhancements. United States v.
Anderson, 795 F. App'x 267, 268 (5th Cir.), cert. granted and
judgment vacated on other grounds by Anderson v. United
States, 141 S. Ct. 845, 208 L. Ed. 2d 415 (2020) ("[E]ven if
we were to conclude that Anderson had shown error here, we
could not, given this circuit's range of authority in cases
addressing double counting guidelines issues, say that the
error was clear or obvious.") (citing several cases, including
United States v. Gillyard, 261 F.3d 506, 511-12 (5th Cir.
2001)). We reaffirm that holding today.
The panel also rejected Anderson's second argument, holding
that "whether he possessed the firearm 'in connection with' his
evading arrest offense is a question of fact that was capable of
resolution by the district court and thus cannot constitute plain
error." Id. (citing United States v. Lopez, 923 F.2d 47, 50 (5th
Cir. 1991) (per curiam)).
Anderson had argued that Lopez was "unsupported by Rule
52" of the Federal Rules of Criminal Procedure and "in
conflict with . . . every other circuit." Less than a month after
the panel issued its opinion, the Supreme Court agreed. See
Davis v. United States, 140 S. Ct. 1060, 1061, 206 L. Ed. 2d
371 (2020) ("[A]lmost every other Court of Appeals conducts
plain-error review of unpreserved arguments, including
unpreserved factual arguments."); id. at 1062 ("Put simply,
there is no legal basis for the Fifth Circuit's [**4] practice of
declining to review certain unpreserved factual arguments for
plain error.").

evade arrest for "several miles" after discarding his firearm,
the weapon could not have "facilitated or had the potential of
facilitating, another felony offense." U.S.S.G. § 2K2.1 cmt.
n.14(A).
But even when a claim of error is preserved, a "reasonable
inference" is all that is needed to support a district court's
factual determination. See United States v. Coleman, 609 F.3d
699, 708 (5th Cir. 2010) ("In determining whether a
Guidelines enhancement applies, the district court is allowed
to draw reasonable inferences . . . and these inferences are fact
findings reviewed for clear error."). And a "district court's
determination of the relationship between [a] firearm and
another offense [**5] is a factual finding." Id.
Here, the fact that Anderson eventually abandoned his loaded,
easily accessible pistol does not negate a reasonable inference
that the firearm facilitated—or at least [*731] had the
potential to facilitate—his initial flight in the middle of a
traffic stop. See United States v. Priestley, 269 Fed. Appx.
349, 350 (5th Cir. 2008) (per curiam) ("As the presence of a
loaded firearm in Priestley's car during his flight from police
had the potential of facilitating his attempt to evade arrest, the
district court did not plainly err by enhancing his offense
level."). At a minimum, the district court's factual
determination that Anderson's possession of a firearm had the
potential to facilitate his vehicular flight "is plausible in light
of the record as a whole." Coleman, 609 F.3d at 708.
Accordingly, the district court did not err—let alone plainly
err—in applying the sentencing enhancement.
For the foregoing reasons, we again affirm the judgment of
the district court.

End of Document

Accordingly, the Court granted Anderson's petition for
certiorari, vacated this court's judgment, and remanded the
case for further consideration. See Anderson, 141 S. Ct. at
845.
***
To demonstrate plain error, Anderson must first show "an
error or defect—some sort of deviation from a legal rule."
United States v. Islas-Saucedo, 903 F.3d 512, 517 (5th Cir.
2018). Anderson contends that the district court erred in
applying the sentencing enhancement for possession of a
firearm "in connection with another felony offense" to his
sentence. Specifically, he argues that because he continued to
Brandon Beck

APPENDIX B

United States v. Anderson
United States Court of Appeals for the Fifth Circuit
February 24, 2020, Filed
No. 19-10180 Summary Calendar
Reporter
795 Fed. Appx. 267 *; 2020 U.S. App. LEXIS 5633 **; 2020 WL 896679

UNITED STATES OF AMERICA, Plaintiff-Appellee v.
BRENT ANDERSON, Defendant-Appellant
Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.
Subsequent History: Vacated by, Remanded by, Motion
granted by Anderson v. United States, 2020 U.S. LEXIS 5584
(U.S., Nov. 16, 2020)
Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:18-CR247-1.

United States v. Anderson, 2018 U.S. Dist. LEXIS 180110
(N.D. Tex., Oct. 3, 2018)
Disposition: AFFIRMED.
Counsel: For UNITED STATES OF AMERICA, Plaintiff Appellee: Leigha Amy Simonton, Assistant U.S. Attorney,
U.S. Attorney's Office, Northern District of Texas, Dallas,
TX.
For BRENT ANDERSON, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Northern
District of Texas, Lubbock, TX; Taylor Wills Edwards
Brown, Federal Public Defender's Office, Northern District of
Texas, Fort Worth, TX.
Judges: Before SMITH, DENNIS, and DUNCAN, Circuit
Judges.

Opinion
[*267] PER CURIAM:*

* Pursuant

to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

Brent Anderson appeals the sentence imposed following his
guilty plea conviction for being a felon in possession of a
firearm in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2).
He argues that the district court plainly erred in applying a
U.S.S.G. § 3C1.2 enhancement for reckless endangerment
during his flight from law enforcement after applying a
U.S.S.G. § 2K2.1 enhancement for possessing a firearm in
connection with another felony offense, namely, the state
felony offense of evading arrest with a vehicle. To apply both
enhancements, Anderson argues, constituted impermissible
double counting pursuant to application note one to § 3C1.2.
Anderson alternatively argues that the district [**2] court
plainly erred in applying the § 2K2.1 enhancement because he
did not possess the firearm "in connection with" his vehicular
flight from law enforcement.
Because Anderson did not object to the enhancements before
the district court, our review is for plain error. See Puckett v.
United States, 556 U.S. 129, 135, 129 S. Ct. 1423, 173 L. Ed.
2d 266 (2009). To show plain error, Anderson has to show
that an error occurred, that the error was clear or obvious, and
that the error affected his substantial rights. See id. If he
makes such a showing, this court has the discretion to [*268]
correct the error but only if it seriously affects the fairness,
integrity, or public reputation of judicial proceedings. See id.
With regard to the § 2K2.1(b)(6)(B) enhancement, Anderson
correctly concedes that the issue whether he possessed the
firearm "in connection with" his evading arrest offense is a
question of fact that was capable of resolution by the district
court and thus cannot constitute plain error. See United States
v. Coleman, 609 F.3d 699, 708 (5th Cir. 2010); United States
v. Lopez, 923 F.2d 47, 50 (5th Cir. 1991). Moreover, on this
record, we conclude that Anderson has failed to show that the
district court plainly erred in applying both enhancements in
calculating his sentence. See Puckett, 556 U.S. at 135; United
States v. Gillyard, 261 F.3d 506, 511-12 (5th Cir. 2001).
Notably, even if we were to conclude that Anderson had
shown error here, we could not, given this circuit's range of
authority [**3] in cases addressing double counting
guidelines issues, say that the error was clear or obvious. See
United States v. Anthony, 755 F. App'x 364, 367 (5th Cir.
2018), cert. denied, 139 S. Ct. 1576, 203 L. Ed. 2d 735

Brandon Beck

Page 2 of 2
795 Fed. Appx. 267, *268; 2020 U.S. App. LEXIS 5633, **3
(2019); United States v. Bocanegra-Rodriguez, 336 F. App'x
430, 430-31 (5th Cir. 2009); Gillyard, 261 F.3d at 511-12;
United States v. Cabral-Castillo, 35 F.3d 182, 188-89 & n.8
(5th Cir. 1994). In light of this conclusion, we do not reach
prongs three and four of the plain error analysis. See Puckett,
556 U.S. at 135.
AFFIRMED.

End of Document

Brandon Beck

APPENDIX C

Case 4:18-cr-00247-Y Document 37 Filed 02/05/19

Page 1 of 3 PageID 80

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:18-CR-00247-Y(1)
Megan J. Fahey, assistant U.S. attorney
Taylor W. E. Brown, attorney for the defendant

BRENT ANDERSON

On October 3, 2018, the defendant, Brent Anderson, entered a plea of guilty to count one of the one-count
information. Accordingly, the defendant is adjudged guilty of such count, which involves the following offense:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE CONCLUDED

COUNT

18 U.S.C. §§ 922(g)(1) and
924(a)(2)

Felon in Unlawful Firearm
Possession

June 4, 2018

1

The defendant is sentenced as provided in pages two through three of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 for count one of the one-count
information.
The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed January 31, 2019.
_______________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed February 5, 2019.

19-10180.51

Case 4:18-cr-00247-Y Document 37 Filed 02/05/19

Judgment in a Criminal Case
Defendant: Brent Anderson
Case Number: 4:18-CR-00247-Y(1)

Page 2 of 3 PageID 81
Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, Brent Anderson, is hereby committed to the custody of the Federal Bureau of Prisons to be
imprisoned for a term of 74 months on count one of the one-count information. This sentence shall run concurrently
with any future sentence imposed in Case No. 1547753D in Criminal District Court No. 3, Tarrant County, Texas,
but consecutively to any future sentence imposed in Case Nos. 1555191 and 1555192 in Criminal Court No. 7,
Tarrant County, Texas.
The Court recommends that the defendant be incarcerated at FMC-- Fort Worth, Texas, if possible.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 3 years
on count one of the one-count information.
While on supervised release, the defendant shall comply with the standard conditions recommended by the
United States Sentencing Commission and shall comply with the following additional conditions:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer in a manner and frequency directed by the Court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;

19-10180.52

Case 4:18-cr-00247-Y Document 37 Filed 02/05/19

Judgment in a Criminal Case
Defendant: Brent Anderson
Case Number: 4:18-CR-00247-Y(1)

Page 3 of 3 PageID 82
Judgment -- Page 3 of 3

cooperate in the collection of DNA as directed by the probation officer, as authorized by the Justice for All
Act of 2004;
report in person to the U.S. Probation Office in the district to which the defendant is released within 72 hours
of release from the custody of the Federal Bureau of Prisons;
refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test within
15 days of release from imprisonment and at least two periodic drug tests thereafter, as directed by the
probation officer;
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of alcohol
and all other intoxicants during and after completion of treatment, contributing to the costs of services
rendered (copayment) at the rate of at least $25 per month; and,
participate in a domestic violence treatment program (i.e. batterer's intervention program and anger
management program) as directed by the probation officer until successfully discharged. The defendant shall
contribute to the costs of services rendered (copayment) at a rate of at least $25 per month.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

FORFEITURE
Pursuant to 18 U.S.C. § 924(d) and 28 U.S.C. § 2461(c), it is hereby ordered that defendant's interest in the
following property is condemned and forfeited to the United States: a Masterpiece Arms, 9-millimeter pistol, Serial
No. F19646, including any ammunition, magazines, and/or accessories recovered with the firearm.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___________________________ to ____________________________________
at ____________________________________________________________, with a certified copy of this judgment.
United States marshal
BY ________________________________
deputy marshal

19-10180.53

